i

Case No.

IN THE UNITED STATES SUPREME COURT
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001

DAVID LOUIS WHITEHEAD,
PETITIONER,
V.
US COURT OF APPEALS FOR Eighth CIRCUIT
CASE NUMBER 21-1333
Dist. Ct. Ilcv4031

WILLIAM JEFFERSON CLINTON, GEORGE W. BUSH AND
BARRACK H. OBAMA, ET AL,
RESPONDENTS.

PETITION FOR WRIT OF CERTIORARI

Comes now Petitioner David Louis Whitehead with his petition for Writ of
CERTIORARI from decisions of the United States District Court for Western
District of Arkansas and United States Eighth Circuit Court.
^

David Louis Whitehead
1906 Scott St.
Bossier, Louisiana 71111
318-820-5029 Cell
l

QUESTIONS
1. Whether Writ Of Mandamus and Amended Writ of Mandamus should have
been granted in the lower courts.
2. Whether Petitioner should have been allowed to amend complaint pursuant

to Rule 15 a, after District Court Judge recused himself, after 11 years.
3.

Whether fraud involving several district courts allows petitioner to file an
independent action in District where respondents does business.

4. Whether District Court Judge omitted the serious conflict on his recusal,
which allows petitioner leave to amend pursuant to Rule 15 a.
5. Whether there is serious fraud on the court involving petitioner’s case
affording his leave to amend complaint pursuant to Rule 15 a.
6.

Whether petitioner can amend complaint naming only corporate and
individual respondents and not federal officials pursuant to Rule 15 a.

7.

Whether Petitioner’s Constitutional Rights were violated relating to his
District Court case, whereas, District Court Judge was OF Counsel with Ins
law firm which had pecuniary interest violating the federal statutes and
laws.

8.

Whether Petitioner’s case and related litigation is Copyrights for Cash.

9. Whether District Court and Appeal Judges should keep abreast of their
financial and pecuniary interest regarding cases before them.
10. Whether Petitioner’s constitutional rights were violated by the fraud on the
court and judicial conflicts of interest both (Pecuniary and Organizational).
11. Whether a recused judge should vacate his decisions.
2

The Parties
Petitioner is David Louis Whitehead.
Respondents are as follows:
President William Jefferson Clinton.
President George W. Bush.
President Barrack H. Obama.
White & Case LLP.
Wallpark LLC.
Judge Paul L. Friedman.
Elizabeth Friedman.
Carol Lamm.
David Johnson.
Charles Meeker.
Delegate Eleanor Holmes Norton.
Judge Norma Holloway Johnson.
Judge Douglas Ginsburg.
Judge Merrick Garland.
Judge Brett Kavanaugh.
3

Ashley Kavanaugh.
Judge Judith Rogers.
Judge Royce Lamberth.
Judge David Sentelle.
Judge Ellen Huvelle.
Judge Richard Roberts.
Judge Deborah Chasanow.
Judge Ricardo Urbina.
Judge Gladys Kessler.
Judge Reggie Walton.
Judge Thomas F. Hogan.
Judge Colleen K. Kotelly.
Judge John D. Bates.
Judge Russell Canan.
Judge Lee Satterfield.
Judge Rhonda Reid Winston.
Judge Susan Winfield.
Judge Michael Rankins.
4

Magistrate Judge Ronald Goodbread.
Judge Anthony Trenga.
Judge Janies Cacheris.
Judge Leonia Brinkema.
Judge Thomas R. Jones.
Judge Robert King.
Judge Roger Gregory.
Judge Blane Michael.
Judge Allyson K. Duncan.
Judge J. Harvey Wilkerson.
Judge Karen Williams.
Judge Andre Maurice Davis.
Judge T. S. Ellis.
Judge Michael Mihms.
Apple Computer Inc.
Microsoft Inc.
H. Patrick Swygert.
Howard University.
5

Father Leo O’ Donovan.
Georgetown University.
Harvard University.
District of Columbia Federal Judicial Nomination Committee.
Democratic National Committee.
District of Columbia.
Julia Tomala.
DNC Chairman Tim Kane.
American Bar Association (ABA).
Carol Lamm.
Dick Parson.
Oprah Winfrey.
Harpo Inc.
Tyler Perry.
Lionsgate Entertainment Company.
Sean Combs.
James Cameron.
Mel Gibson.
6

Dewayne Wickham.
Eric Michael Dyson.
Terry McMillan.
Debbie Allen.
Dreamwork Pictures.
Tom Cruise.
Paul Wagner.
20th Century Fox Film.
Sony Inc.
Columbia Pictures Inc.
MGM Inc.
Columbia Pictures Industries Inc.
Walt Disney Company,The
Paramount Pictures
Viacom Inc.
Time Warner Inc.
New Line Cinema.
Mike Myers.
7

Warner Bros.
Black Entertainment Television.
General Electric Company.
NBC Universal Pictures.
Stephens Inc.
Turner Broadcasting Systems.
Comcast Inc.
J. P. Morgan.
Goldman Sachs.
Bank of America.
Dick Parsons.
Wachovia Bank (Wells Fargo Bank).
Hillary R. Clinton.
Jeffrey Kilduff.

8

Jurisdiction
This High Court has jurisdiction for judicial review pursuant to 28 U.S.C. Section
1254 (1) as amended. District Court case was A Paid Case. The Appellate review
was IFP.

9

Table of Contents

Table of Authorities
Opinions Below
Jurisdiction......

pp. 11-13
p. 10
p. 9

Constitutional Provisions Involved
Statement of the Case

15-24

REASONS FOR GRANTING THE WRIT

CONCLUSION

p.14

pp. 25-26

p. 26

APPENDIX A. Decision of the Recused District Court Judge.
APPENDIX B. Decision of the reassigned District Court Judge.

APPENDIX C. Decision of the Circuit Court.

10

Cases
United States v. Sineneng-Smith, 590 U.S.__ (2020)....... pp. 15,17,20,21,25.
Lilieberg v. Health Services Acquisition Corn.486 U.S. 847 (1988) 108 S. Ct.
2194...pp.20, 21, 26.
Hazel Atlas. 322 U.S. 238, 64 S. Ct. 997, 88 L.ed 1250 (1944)...pp.15,16,17,19,20,21.
Baltia Air Lines, Inc., Appellant, v. Transaction Management, Inc., Appellee, 98
F.3d 640 (D.C. Cir. 1996)...p. 20.
Litekv v. US. 510 U.S. 540 (1994)... p.17.
US v. Guy V. Tucker, 1313, 1324, 1325 (8th Circuit 1996)...p.21.
Liddell v. Board of Educ, 677 F. 2d 626, 643 (8th Cir. 1982). ...p.21.
Foman v. Davis, 371 U.S. 178 (1962)...p. 22.
Universal Oil Products v. Root Refining Co, 328 575, 66 S. Ct. 1176 90 L. Ed. 1447
(1946). Pp. 19,20.
U.S. v. Beggerly, 524, U.S. 38, 118 S. Ct. 1862 141 L. Ed. 2d 32 (1998). p.20
Murchison, 349 U.S. 133 (1955). p. 14.
Tumey v. State of Ohio, 273 U.S. 510, 532 (1927). p. 14.
Ohralik v. Ohio State Bar Assn, 436 U.S. 447, 462-68 (1978). p. 14.
Offutt v. United States, 348 U.S. 11, 14, 1954. p.14.
Aetna Life Insurance Company v. Lavoie, 475 U.S. 813 (1986). p. 14.
Dred Scott v. Sandford 60 U.S. 393, reversed via 5th, 13th and 14th amendments, p.
14.
Plessy v. Ferguson, 163, U.S. 537 (1986). p.14
Brown v. Board of Education, of Topeka, 347 U.S. 483, (1954). p. 14.
11

United States v. Turkette, 452 U.S. 576, 583 (1981). p. 15.
Boyle v. United States (2009)...p.15.
Greenlaw v. United States. 554 U.S. 237. 243 (2008). Pp. 15, 17, 20.
Bush v. Gore. 2000. p. 18.
U.S. Metropolitan St. Louis Sewer District. 440 F.3d 930, 935 (8th Cir. 2006). Pp..
19,20.
U.S. v. Smiley, 553 F.3d 1137, 1144-45 (8th Cir. 2009). p. 19.
Tv Inc, v. Softbellv’s Inc. 517 F.3d. 494, 498 (7th Cir. 2008). p. 19.
United States v. Young. 806 F.2d 805, 806 (8th Cir. 1986), cert, denied, 484 U.S. 836
(1987). p. 23.
Bowles v. Reade, 198 F.3d 752, 758 (9th Cir. 1999) (“undue delay by itself...is
insufficient to justify denying a motion to amend”), p. 23.
Building Industry Ass’n of Superior Court California v. Norton. 247 F.3d 1241. 1245
D.C. Cir. 2001, n.23.
Eg Prater v. Ohio Educ Assn’ 505 F.3d 437. 445 (6th Cir. 2007)(increased burden to
show justification for failing to move earlier”), p.23.
Morse v. McWhorter. 290 F.3d. 795. 799 (6th Cir. 2002). 60 b applies, p.24.
Eg Pet Quarters Inc, v. Depository Trust & Clearing Corn. 559 F.3d 772, 782 (8th
Cir. 20091. p.24.
Chenev v. U.S. Dist. Court for the D.C.. 542 U.S. 367 (2004). p. 22.
Kerr v. U.S. Dist. Court for the N. Dist. of Cal.. 426 U.S. 394 (1976). p. 22.
WiH v. United States, 389 U.S. 90 (1967). p. 22.

12

In re Lombardi. 741 F.3d 888 (8th Cir. 2014) (en banc), p. 22.
Auer v. Trans Union. LLC, 834 F.3d 933, 936 (8th Cir. 2016). p.22.
Foman v. Davis. 371 U.S. 178 (1962). p.21.
Horras v. Am. Capital Strategies. Ltd.. 729 F.3d 798, 804 (8th Cir. 2013), cert,
denied, 134 S. Ct. 1346 (2014). p.23.
Spinar v. S.D. Bd. of Regents, 796 F.2d 1060, 1062 (8th Cir. 1986) (quotation
omitted), p.23.
Fiske v. Buder (C.C.A.8th, 1942) 125 F.(2d) 841.
Turner v. Pleasant. No. No. 11-30129. Revised Dec. 16, 2011, after 23 years.
TURNER v. PLEASANT 663 F.3d 770 (2011). p.23.
In re Bieter, 16 F.3d 929, 932 (8th Cir. 1994). p.24.
Allied Chem. Corn, v. Daiflon. Inc.. 449 U.S. 33, 34 (1980). p.24
Middleton v. McDonald 388 F.3d 614, 618 (8th Cir. 2004). p.21.
In re Ford Motor Co.. 751 F.2d 274, 275 (8th Cir. 1984). p.24

13

CONSTITUTIONAL AUTHORITIES AND STATUTORY PROVISIONS
INVOLVED
• U.S. CONSTITUTION, FIFTH AMENDMENT United States Constitution in
pertinent part provides: No person shall be deprived of life, liberty, or property,
without due process of law.
• Amendment Thirteenth, United States Constitution in pertinent part provides:
Neither slavery nor involuntary servitude, except as a punishment for crime
whereof the party shall have been duly convicted, shall exist within the United
States, or any place subject to their jurisdiction.
• U.S. CONSTITUTION, FOURTEENTH AMENDMENT Section 1, | United
States Constitution in pertinent part provides: • No State deprive any person of life,
liberty, or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws. • Litigants have mandatory
constitutional rights to appear before unbiased jurists who should remain impartial
to the parties in fact and law involving cases. See in re: Murchison, 349 U.S. 133
(1955); Turney v. State of Ohio, 273 U.S. 510, 532 (1927); Ohralik v. Ohio State Bar
Assn, 436 U.S. 447, 462-68 (1978); Offutt v. United States, 348 U.S. 11, 14, 1954;
Aetna Life Insurance Company v. Lavoie, 475 U.S. 813 (1986). Dred Scott v.
Sandford 60 U.S. 393, reversed via 13th and 14th amendments, Plessy v. Ferguson,
163, U.S. 537 (1986), and Brown v. Board of Education, of Topeka, 347 U.S. 483,
and United States v. Sineneng-Smith, 590 U.S.

(2020).

• 28 U.S.C. SECTION 455 (a) states: (1) Any Justice, Judge or Magistrate of the
United States shall disqualify himself in any proceeding in which his impartiality
might reasonably be questioned. • Title 28 U.S.C. Section 455 (b) (4) pertains to
pecuniary and financial interest requires disqualification. • Title 28 U.S.C. Section
455 (a) (b) (1), (2), (3) pertains to judicial bias and previous employment associated
with the litigation. • Federal Rules of Civil Procedures: 5th & 14th amendments, 15
a, 60 b, 60 b, 60 b3, 60 b 6... pp.14, 16, 18, 22, 23, 24, 25, 26,
14

Statement of the Case
1
Petitioner sued a host of federal and corporate officials, entities and individuals
based on his intellectual properties (Copyright in nature) and over corrupt judicial
decisions (pecuniary and organizational interest), which protected the Hollywood
defendants and associates relating to petitioner’s copyrights (properties). The
District Court’s Judge’s presided on case as “Of Counsel” with his law firm, having
pecuniary interest in the case. Hazel - Atlas Glass Co. v. Hartford-Empire, Co, 322
U.S. 238 64 S. Ct. 997, 88 L. Ed. 1250 (1944). Also see attached Exhibit 1.
The case was based on alleged tainted and corrupt judicial decisions tied to
Hollywood, White House and Congress on petitioner’s copyrights involving serious
fraud on the court.
2.

Judge Paul L. Friedman as a General Partner with White & Case LLP, Partners
and Associates of White & Case LLP in Wallpark LLC Investors dismissed
petitioner’s 11 cases in favor for the Enterprise clients. See United States v.
Sineneng-Smith, 590 U.S.__ (2020); also see Greenlaw v. United States. 554
U.S. 237. 243 (2008). “In both civil and criminal cases, ... we rely on the parties to
frame the issues for decision and assign to courts the role of neutral arbiter of
matters the parties present.” Id., at 243. Also see United States v. Turkette.
452 U.S. 576, 583 (1981); see Bovle v. United States (2009) (“to established a
RICO association -in-fact “Enterprise”, the Government must prove (1) an
ongoing organization with a framework, formal or informal, for carrying
out its objectives, and (2) that association members functioned as a
continuing unit to achieve a common purpose”. In short, White & Case and
Wallpark LLC investors operations fits the above language regarding RICO
conspiracy leading to the massive copyright theft of the petitioner’s intellectual
property, joined by over 150 judges relating to protecting the RICO Conspiracy and
15

Hollywood Studios. Hazel - Atlas Glass Co. v. Hartford-Empire, Co, 322 U.S. 238
64 S. Ct. 997, 88 L. Ed. 1250 (1944). Several more of the District Court judges had
obvious judicial conflicts of interest associated with the fraud on the court involving
the petitioner’s copyrights: Judge PK Holmes (Of Counsel) with his law firm; Judge
Richard T. Haik holding pecuniary and organizational interest; Judge Anthony
Trenga also dismissed petitioner’s case holding General Electric Company financial
interest associated with GE’s Universal Pictures, a defendant in petitioner’s case
before the court. In short, Judge Anthony Trenga, failed to keep abreast his
pecuniary interest relating to General Electric Company, parent of Universal
Pictures, involved with petitioner’s case. The court stated judicial proceedings that
he didn’t know that General Electric Company was the parent of Universal
Pictures. Judge Dee D. Drell, false statement on his pecuniary interest in
Hollywood studios and lenders, and insurance company; Judge Robert Klausner,
holding pecuniary interest in Verizon Inc, tied to the petitioner’s litigation; Judge
Stephen V. Wilson, pecuniary interest in company seriously tied to Verizon
Communication, and Judge Wilson’s law clerk, was opposing counsel; Magistrate
Mark Hornsby, pecuniary and organizational interest tied to Fifth Circuit Judge
Carl Stewart, whose brother was Verizon’s Senior Counsel for Verizon FIOS; Judge
John F. Walter, lost track of his Comcast financial interest tied to the Hollywood
studios, ruling adversely against the petitioner. Judge Walter also held AT&T
financial stocks tied to the Hollywood studios. Several 9th Circuit Judges and other
Circuit Judges, including Judge Roger Gregory in total conflict with the petitioner’s
litigation. Judge Deborah Chasanow had pecuniary interest presiding on
petitioner’s case. The court had an in a home loan by White & Case LLP and
Wallpark LLC investor’s bank First Union. See Attached exhibit 1, on other jurists
associated with this huge pubhc corruption case, requiring the high court to unseal
in part FBI’s report on the alleged massive theft of petitioner’s copyrights. Further,
noting that some of the Supreme Court justices are possibly fisted in the FBI report
in association with this case. Other Judicial conflicts are fisted in petitioner’s
exhibit 1. 28 U.S.C. 455 a, bl, b4. Also see 18 U.S.C. Section 1962 C, White & Case
16

LLP and Wallpark LLC Investor associated with Judge Friedman’s General
Partnership and his spouse.
3.

Judge Friedman, as a General Partner with White & Case LLP, Partners and
associates and spouses in Wallpark LLC Investors dismissed 11 of petitioner’s
cases.

The court had prior knowledge of the petitioner relating to his employer

Eleanor Holmes Norton, who was sued by petitioner. Litekv v. US. 510 U.S. 540
(1994); See United States v. Sineneng-Smith, 590 U.S.

(2020); also see

Greenlaw v. United States. 554 U.S. 237. 243 (2008); Hazel - Atlas Glass Co. v.
Hartford-Empire, Co, 322 U.S. 238 64 S. Ct. 997, 88 L. Ed. 1250 (1944). “In both
civil and criminal cases, ... we rely on the parties to frame the issues for decision
and assign to courts the role of neutral arbiter of matters the parties
present.” Id., at 243.
Three US Presidents are associated with Judge Friedman, White & Case LLP and
Wallpark LLC Investors via their legal representatives at Williams and Connolly
LLP. Williams and Connolly LLP is opposing counsel in petitioner’s cases before
Judge Friedman.
The History
•

President Bill Clinton, Hillary Clinton, President George W. Bush, President
Barrack Obama and Michelle Obama are represented by Williams and
Connolly LLP, opposing counsel in petitioner’s cases before Judge Friedman
of White & Case LLP and Wallpark LLC investor. Williams and Connolly
LLP and White & Case LLP tied to Wallpark LLC and the court, Judge
Friedman have the same clients.

• President Bill Clinton nominated Judge Friedman to the federal bench. As a
federal judge, Judge Friedman remained a General Partner with White &
Case LLP and associates in Wallpark LLC Investors, violating the federal
statutes and law. .
17

• White & Case LLP represents Viacom, a company that published Hillary
Clinton’s books through Simon & Schuster of Viacom. The Senate Ethics
Committee investigated Mrs. Clinton’s $8 million book deal.
• White & Case LLP associated with Judge Friedman and Wallpark LLC
Investors represented Texas Governor George W. Bush in Bush v. Gore LLP,
2000. Attorneys Brett M. Kavanaugh and Amy Coney Barrett also
represented Mr. Bush in Bush v. Gore. 2000. White & Case LLP’s attorney
George Terwilliger represented Mr. Bush in Bush v. Gore. 2000, along with
Attorneys Kavanaugh and Barrett, Supreme Court Justices.
• Judge Kavanaugh, Judge Merritt Garland and Judge Douglas Ginsburg
denied petitioner’s appeal cases involving Judge Friedman’s recusal,
although Judge Friedman dismissed petitioner’s 11 cases in favor for his
White & Case LLP and Wallpark LLC investors partnership and clients. 28
U.S.C. Section 455 a, bl, b4, bi,ii,iii,iv. 3clc.
•

Circuit Court’s Judge Garland’s presided on petitioner’s cases as a Board
member at Harvard University associated with Lucy Fisher of Creative
Artist Agency (CAA) and respondent Columbia Pictures, and Dr.
Higginsbotham of respondent Howard University. Ms. Fisher and Dr.
Higginsbotham are employees of the defendants (Columbia Pictures and
Howard University) and material witnesses.

• Judge Kavanaugh was employed for Governor Bush in Bush v. Gore,
associated with White & Case LLP tied to Judge Friedman and Wallpark
LLC investors. Moreover, the court worked on Bush-Cheney, 2000.
• Judge Douglas Ginsburg held pecuniary interest in petitioner’s appeal
involving WB (Warner Brothers) and Stephens Family Inc. Moreover, the
court had ex parte communications with petitioner regarding the court’s
Supreme Court nomination withdrawer, which presents judicial bias and
prejudice. 28 U.S.C. 455 a, bl, b4.

18

• Judge Roger Gregory was a board member for ABA (American Bar
Association) along with President of the ABA, Carol Lamm of White & Case
LLP. Judge Gregory should have recused himself, along with other Fourth
Circuit Judges having pecuniary interest in petitioner’s appeals.
• Judge Anthony Trenga claims that he didn’t know that General Electric
Company in 2009, was the parent for Universal Pictures, a defendant in
petitioner’s case before the court. See Whitehead v. Paramount Pictures.
Universal Pictures, et al., 08cv792, ED VA. Further, noting that Judge
James Cacheris recused himself from the same case holding General Electric
Company financial interest, reassigned to Judge Trenga.
•

President Obama joined in the conspiracy to protect Judge Friedman, White
& Case LLP and Williams and Connolly, LLP via Attorney General Eric
Holder and others. Williams and Connolly is opposing counsel in petitioner’s
cases before Judge Friedman, and the law firm Williams and Connolly
represents Clintons, Bushes, and Obamas. White House conflicts laws apply.
Also undue influence: Tv Inc, v. Softbellv’s Inc. 517 F.3d. 494, 498 (7th Cir.
2008).

\

• The remaining issues involves copyright infringement and thief of petitioner’s
intellectual properties associated with Fraud, RICO and Conspiracy
pertaining to other respondents: Oprah Winfrey advertising the respondent’s
thief and fraud, and when caught disbanded Harpo Productions (Day-time).
See exhibits 2, 0 Magazine response to petitioner’s request on “Aretha”,
leading to films: Genius: Aretha and Respect.
•

The law firms and lawyers named in this case, had prior knowledge of Judge
Friedman’s White & Case LLP and Wallpark LLC Enterprise, which goes
into RICO Conspiracy. See 18 U.S.C. Section 1962 C. U.S. Metropolitan St.
Louis Sewer District. 440 F.3d 930, 935 (8th Cir. 2006). Also see U.S. v.
Smiley, 553 F.3d 1137, 1144-45 (8th Cir. 2009); Hazel - Atlas Glass Co. v.
Hartford-Empire, Co, 322 U.S. 238 64 S. Ct. 997, 88 L. Ed. 1250 (1944); Also
see Universal Oil Products Co, 328 U.S. 575, 66 S. Ct. 1176 90 L. Ed. 1447
19

(1946), Baltia Air Lines. Inc.. Appellant, v. Transaction Management, Inc.
Appellee, 98 F.3d 640 (D.C. Cir. 1996.
4
Pursuant to United States v. Beggerlv. 524 U.S. 38 (1998), Petitioner sued
respondents over above matters in the State of Arkansas, assigned to Judge PK
Holmes as Whitehead v. Clinton. Bush and Obama, et al., Ilcv4031, W.D. Ark.
After dismissal of the case, by the court, Petitioner learned that presiding Judge
Holmes was “Of Counsel” with his law firm Warner, Smith & Harris, PLC, which
has interest in the outcome of the litigation. See attached Exhibit Al; also 18
U.S.C. Section 1962 C., U.S. Metropolitan St. Louis Sewer District. 440 F.3d 930,
935 (8th Cir. 2006). Also see U.S. v. Smilev. 553 F.3d 1137, 1144-45 (8th Cir. 2009);
Hazel - Atlas Glass Co. v. Hartford-Emnire. Co, 322 U.S. 238 64 S. Ct. 997, 88 L.
Ed. 1250 (1944); Also see Universal Oil Products Co. 328 U.S. 575, 66 S. Ct. 1176 90
L. Ed. 1447 (1946), Lilieberg v. Health Services Acquisition Corn,486 U.S. 847
(1988) 108 S. Ct. 2194. Also see Amended Writ of Mandamus pleading with
exhibits filed with the 8th Circuit Court. The law firm Warner, Smith & Harris PLC
disbanded after 140 years due to association with federal Judge Holmes. United
States v. Sineneng-Smith, 590 U.S.

(2020); also see Greenlaw v. United

States. 554 U.S. 237. 243. (2008). “In both civil and criminal cases, ... we rely on
the parties to frame the issues for decision and assign to courts the role of neutral
arbiter of matters the parties present.” Id., at 243. Also see United States v.
Turkette. 452 U.S. 576, 583 (1981); see Boyle v. United States (20091 (“to
established a RICO association -in-fact “Enterprise”, the Government must prove
(1) an ongoing organization with a framework, formal or informal, for carrying out
its objectives, and (2) that association members functioned as a continuing unit to
achieve a common purpose”.

20

Today, after 11 or more years, Judge Holmes recused himself from petitioner’s case
but failed to vacate his decisions and allow petitioner to amend his complaint.
Moreover, the court stated the grounds for his recusal was due to his pecuniary
interest in General Electric Company. The court’s statement is true, however, the
court failed to state the more serious nature of his disqualification, that he was “Of
Counsel” with the law firm Warner, Smith and & Harris, PLC, presiding on
petitioner’s case, which violates the statutes and laws of the federal circuit. Judge
Holmes recusal means that the rest of the jurists having pecuniary interest in the
petitioner’s cases are compelled to recuse themselves as well: Judges Friedman,
Anthony Trenga, Richard Haik, John F. Walter, Dee D. Drell, Stephen Wilson,
Robert Klausner and others. Further, Magistrate Charles Eick lead the steering
committee like Judge Royce Lamberth, channeling petitioner’s cases to conflict
judges, after both jurists recused themselves from the cases, after cases were
reassigned. See Middleton v. McDonald 388 F.3d 614, 618 (8th Cir. 2004);
Metropolitan St. Louis Sewer District. 440 F.3d 930, 935 (8th Cir. 2006); U.S. v.
Smilev. 553 F.3d 1144-45 (8th Cir. 2009), U.S. v. Guv V. Tucker. 1324, 1325 (8th Cir.
1996); United States v. Sineneng-Smith. 590 U.S.

(2020): Hazel - Atlas

Glass Co. v. Hartford-Empire. Co, 322 U.S. 238 64 S. Ct. 997, 88 L. Ed. 1250 (1944);
Also see Universal Oil Products Co. 328 U.S. 575, 66 S. Ct. 1176 90 L. Ed. 1447
(1946), Lilieberg v. Health Services Acquisition Corp.486 U.S. 847 (1988).
The recused Judge and new assigned judge failed to allow petitioner to amend his
complaint, since petitioner proved clear and convincing fraud on the court, with the
recused judge’s recusal which required vacating his decisions in petitioner’s case.
See Foman v. Davis. 371 U.S. 178 (1962); Liddell v. Board of Educ. 677 F.2d 626,
643 (8th Circuit 1982). Also see Rule 60 b, 60 b 3, 60 b 6. Also see attached judicial
orders of the court.

21

5
The circuit court denied Writ of Mandamus and amended Writ of Mandamus in the
above matters.
The following cases and authorities agree mandamus is only for “extraordinary
cases” to remedy a district court’s “usurpation of power” where the petitioner has no
other adequate means for relief. See, e.g., Cheney v. U.S. Dist. Court for the D.C..
542 U.S. 367 (2004); Kerr v. U.S. Dist. Court for the N. Dist. of Cal.. 426 U.S. 394
(1976); Will v. United States, 389 U.S. 90 (1967); In re Lombardi. 741 F.3d 888 (8th
Cir. 2014) (en banc); Auer v. Trans Union. LLC, 834 F.3d 933, 936 (8th Cir. 2016).
The central issue involves the District Court Judge abused of his discretion
presiding on petitioner’s case as OF Counsel with his law firm, while having
pecuniary interest in petitioner’s case. This case requires Mandamus relief, and to
allow petitioner to amend his complaint pursuant to Rule 15 A. It would be unfair
to deny relief in this case relating to the court’s misconduct. 12 or 11 years have
past, and the court has a change in his standing, in serious conflict with petitioner’s
case. The court did finally recuse himself on other grounds (pecuniary interest),
however, the harm involving the court’s action and partnership with his law firm is
a serious abuse of discretion.
6.

Another central issue is allowing petitioner to amend his complaint due to fraud on
the court, involving the court’s “Of Counsel” association with his law firm, which
had interest in the case. Since the Judge recused himself after 11 years or more,
knowing of his previous conflicts involving fraud on the court, fundamental fairness
should enter the picture, by allowing petitioner to amend his complaint, dismissing
the federal officials, and naming the corporate and individual respondents. Rule 15
a, as amended. See Foman v. Davis. 371 U.S. 178 (1962).

22

A
Case Law allowing the Amendment Pursuant to Rule 15 a and 60 b3, 60 b6:
• A district court has discretion under Rule 60(b) to grant post-judgment leave
to file an amended complaint if the motion is “made within a reasonable
time,” Rule 60(c)(1), and the moving party shows “exceptional circumstances”
warranting “extraordinary relief.” United States v. Young, 806 F.2d 805, 806
(8th Cir. 1986), cert, denied, 484 U.S. 836 (1987). We review the district
court’s denial of leave to -9- amend under Rule 60(b) for abuse of discretion.
See Horras v. Am. Capital Strategies. Ltd.. 729 F.3d 798, 804 (8th Cir. 2013),
cert, denied, 134 S. Ct. 1346 (2014); Young, 806 F.2d at 806. “Rule 60(b) was
not intended as a substitute for a direct appeal from an erroneous judgment.”
Spinar v. S.D. Bd. of Regents, 796 F.2d 1060, 1062 (8th Cir. 1986) (quotation
omitted). Also see Fiske v. Buder (C.C.A.8th, 1942) 125 F.(2d) 841.
•

60 b 3 (3) fraud (whether previously called intrinsic or extrinsic),
misrepresentation, or misconduct by an opposing party. Here the court
engaged in fraud as Of Counsel with law firm having interest in the outcome
of the judicial decision. The case was reopened which allowed the judge to
recuse himself after 11 years. Also see Fifth Circuit Relief in Turner v.
Pleasant. No. No. 11-30129. Revised Dec. 16, 2011, after 23 years. Also see
TURNER v. PLEASANT 663 F.3d 770 (2011).

• The moving party shows “exceptional circumstances” warranting
“extraordinary relief.” United States v. Young. 806 F.2d 805, 806 (8th Cir.
1986), cert, denied, 484 U.S. 836 (1987).
•

Bowles v. Reade. 198 F.3d 752, 758 (9th Cir. 1999) (“undue delay by itself...is
insufficient to justify denying a motion to amend”).

• Building Industry Ass’n of Superior Court California v. Norton. 247 F.3d
1241. 1245 D.C. Cir. 2001.
• Eg Prater v. Ohio Educ Assn’ 505 F.3d 437. 445 (6th Cir. 2007)(increased
burden to show justification for failing to move earlier”)
23

• Morse v. McWhorter. 290 F.3d. 795. 799 (6th Cir. 2002). 60 b applies.
• Eg Pet Quarters Inc, v. Depository Trust & Clearing Corp, 559 F.3d 772. 782
(8th Cir. 20091
B
Case law for granting Writ of Mandamus relating to the above discussion
The Eighth Circuit has issued Writ of Mandamus in similar cases stating in re: In
re Ford Motor Co.. 751 F.2d 274, 275 (8th Cir. 1984). "The remedy of mandamus is a
drastic one, to be invoked only in extraordinary situations." Allied Chem Corn, v.
Daiflon. Inc.. 449 U.S. 33, 34 (1980). Petitioner Medtronic, respondent Adcox and
the government all concede that in this circuit we are controlled by the five
guidelines outlined in In re Bieter Co.. 16 F.3d 929 (8th Cir. 1994). Here, we think
the requirements of Bieter have been met because all guidelines, except guideline
four, have been established...” Moreover, the 8th Circuit stated, “The five
guidelines are: (1) the party seeking the writ has no other adequate
means, such as direct appeal, to attain the relief desired; (2) the petitioner will be
damaged or prejudiced in a way not correctable on appeal; (3) the district court's
order is clearly erroneous as a matter of law; (4) the district court's order is an oftrepeated error, or manifests a persistent disregard of the federal rules; and (5) the
district court's order raises new and important problems or issues of first
impression. See In re Bieter. 16 F.3d 929, 932 (8th Cir. 1994).
In short, the court’s fraud allows the granting of the Writ of Mandamus based on
the above guidelines, especially, at guidelines 2 and 5. Rules 60 b, 60 b 3, and 60 b
6 applies. See attached Criminal Referral and FBI letters as attached Exhibits
MJM, FBI 1 and FBI 2, requiring the court to unseal the case in part on what was
stolen and/or infringed, if anything. District Court failed to rule on the matter.

24

c
The District Court failed to transit petitioner’s notice of appeal in a timely manner,
to allow the Circuit Court to log in the notice of appeal, to be consolidated with
petitioner’s Writ of Mandamus and Amended Writ of Mandamus, pertaining to
leave to amend the complaint. See Rule 15 a. Further, noting that petitioner did
not file any amendments to his complaints, which is allowed by the statutes. Rule
15 a. Petitioner’s Motion to Recall Mandate is pending.

Reasons to Grant Certiorari
1. The Writ of Mandamus and Amended Writ of Mandamus should have been
granted due to the District Court’s Judge’s misconduct. Rule 60 b3, 60 b 6
(miscarriage of Justice).
2. Petitioner should be allow to amend his complaint to name corporate and
individual respondents, and not federal officials.
3. Petitioner’s constitutional rights (5th and 14th amendments) were violated
associated with the court having pecuniary interest and fraud on the court
related to the court’s “Of Counsel” partnership with his law firm in 2011. See
attached exhibit Al. See attached Ex. A order of the court, recused but failed
to vacate tainted decisions, to allow petitioner to amend his complaint
pursuant to rule 15 a, as amended. Also see FBI Referral and Letters as
exhibits MJM, FBI 1, and FBI 2.
4. The court’s grounds for his recusal were not fully discussed in his order,
which interfered with the Circuit Court’s decision. This too is fraud on the
court pursuant to Rule 60 b, 60 b 3, 60 b6, miscarriage of justice standards.
5. Fundamental fairness is required by the courts pertaining to impartial
proceedings, in re: Murchison, 349 U.S. 133 (1955), United States v.
Sineneng-Smith. 590 U.S.__ (2020).
25

6. The granting of Writ of Mandamus meets the standards for judicial relief
because of the court’s “Of Counsel” association and partnership with his law
firm. Rule 60 b6. Lilieberg v. Health Services Acquisition Corn,486 U.S. 847
(1988). This requires the high court to order the recused judge to vacate his
order and allow an amended complaint which was not filed in this case
pursuant rules 60 b and 15 a, as amended.

Conclusion

In conclusion, petitioner prays that the court will grant his petition for Writ of
Certiorari.

David Louis Whitehead
1906 Scott St.
Bossier, Louisiana 71111

26

